 EAST-WEST UNIVERSITY’S ADMINISTRATION OF THE
   STUDENT FINANCIAL ASSISTANCE PROGRAMS




                                 FINAL AUDIT REPORT




                                 Audit Control Number 05-90009
                                           May 1999




Our mission is to promote the efficient                          U.S. Department of Education
and effective use of taxpayer dollars                            Office of Inspector General
in support of American education                                 Chicago, IL
                               NOTICE

Statements that management practices need improvement, as well as other
conclusions and recommendations in this report, represent the opinions of the
Office of Inspector General. Determination of corrective action to be taken
will be made by appropriate Department of Education officials. This report
may be released to members of the press and general public under the Freedom
of Information Act.
Table of Contents
  East-West University
  SFA Programs
  Audit Control Number 05-90009
Transmittal Letter/Memorandum

Executive Summary                              1

Audit Results                                  3

Appendix   Background; Purpose, Objectives,
           Scope, and Methodology; and
           Statement on Management Controls    9


Attachment Auditee Comments                   11
                                                                                     May 18, 1999

MEMORANDUM
TO:            Greg Woods
               Chief Operating Officer
               Office of Student Financial Assistance Programs


FROM:          Richard J. Dowd
               Regional Inspector General
               for Audit - Region V

SUBJECT:       FINAL AUDIT REPORT
               East-West University, Chicago, Illinois
               Administration of the Student Financial Assistance Programs
               ED Audit Control Number A05-90009

Attached is the final audit report of East-West University’s Administration of the Student
Financial Assistance Programs. In accordance with the Department’s Audit Resolution Directive,
you have been designated as the action official responsible for the resolution of the findings and
recommendations in this report.

If you have any questions or wish to discuss the contents of this report, please contact me at 312-
886-6503. Please refer to the above audit control number in all correspondence relating to this
report.



Attachment
                                                                                     May 18, 1999

Dr. M. Wasiullah Khan, Chancellor
East-West University
816 South Michigan Avenue
Chicago, Illinois 60605

Dear Dr. Khan:

Enclosed is our Final Audit Report entitled, “East-West University’s Administration of the
Student Financial Assistance Programs.” If you have any additional comments or information that
you believe may have a bearing on the resolution of this audit, you should send them directly to
the following Education Department official, who will consider them before taking final
Departmental action on the audit:

               Greg Woods, Chief Operating Officer
               Office of Student Financial Assistance Programs
               U.S. Department of Education
               Regional Office Building, Room 4004
               7th and D Streets, S.W.
               Washington, D.C. 20202-5340

Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations contained
therein. Therefore, receipt of your comments within 35 days would be greatly appreciated.

In accordance with the Freedom of Information Act (Public Law 90-23), reports issued to the
Department’s grantees and contractors are made available, if requested, to members of the press
and the general public to the extent information contained therein is not subject to exemptions in
the Act.


                                              Sincerely,



                                              Richard J. Dowd
                                              Regional Inspector General
                                              for Audit - Region V

Attachment
                                 Executive Summary
East-West University [University] generally administered the Title IV, Higher Education Act
[HEA] programs in accordance with the regulations except for the items discussed below.
Specifically, the University did not: (1) always liquidate credit balances or return overpayments;
(2) award Federal Supplemental Educational Opportunity Grants [FSEOG] correctly; (3)
document Federal Work Study [FWS] job titles and job descriptions or prohibit students from
reporting hours worked during scheduled classes; and (4) disclose all fees assessed. The Office of
Student Financial Assistance Programs [OSFAP] should instruct the University to: (1) liquidate
credit balances and return overpayments and review all student ledger cards for additional credit
balances and outstanding overpayments and refund any it identifies; (2) establish and implement
policies and procedures to ensure it awards FSEOG in accordance with the regulations; (3)
support that students worked in allowable jobs or refund $40,582 to the U.S. Department of
Education [ED], and establish and implement policies and procedures that document job titles and
job descriptions, prohibit students from reporting work hours and class hours that are in conflict,
and adequately separate duties; and (4) revise its refund policy to notify students of the
administrative fee assessed when making a refund calculation. The University said it recognizes a
need for more detailed written policies and procedures so it has started drafting an operating
manual. It agreed with findings 1, 2, and 4 in total and with finding 3 in part. For finding 3, the
University disagreed that it should refund all FWS wages. We have not changed the finding
because the University did not provide specific support for the unsupported work.


                                      The University did not always liquidate credit balances or
  The University Did Not              return overpayments when it disbursed funds to students
  Always Liquidate                    who did not start class. The regulations require an
  Credit Balances or                  institution to liquidate credit balances and return
  Return Overpayments                 overpayments. For students in our sample, the University
  Applicable to Students              did not liquidate credit balances of $768 or return
  Who Did Not Start                   overpayments of $3,780 disbursed on behalf of “no-show”
  Class                               students. OSFAP should instruct the University to: (1)
                                      establish and implement written policies and procedures for
                                      liquidating credit balances and returning overpayments; (2)
                                      liquidate the outstanding credit balances and return to ED
                                      and the Illinois Student Assistance Commission [ISAC]
                                      overpayments disbursed on behalf of “no-show”students in
                                      our sample; (3) review all student ledger cards for credit
                                      balances and liquidate outstanding balances; and (4) review
                                      all student ledger cards for funds disbursed on behalf of
                                      “no-show” students and return any overpayments. An
                                      independent public accountant should attest to the
                                      University’s results for recommendations 3 and 4.

                                      Contrary to FSEOG regulations, the University did not give
  The University Did Not              priority to students with the greatest need when awarding
  Always Award FSEOG                  FSEOG. Instead, the University gave priority to students
  Funds Correctly                     who appeared to be having trouble paying off their account
                                      balances or who indicated a need such as supporting other

FINAL AUDIT REPORT                             Page 1               ED-OIG-AS, Audit Control Number 05-90009
                            family members. As a result, the University awarded
                            FSEOG to students with Expected Family Contributions
                            [EFCs] greater than zero, but did not award funds to all
                            students with zero EFCs. OSFAP should instruct the
                            University to establish and implement written policies and
                            procedures for awarding FSEOG which comply with the
                            regulations.

                            The University’s FWS students had no job titles or job
FWS Students Had No         descriptions. Federal regulations restrict the type of work
Job Titles/Job              students can perform. Without a job title or job description
Descriptions and            it is impossible to determine if the work students are
Students Reported           performing is allowable under FWS regulations. Also, we
Work Hours That             found FWS students’time sheets showed conflicts between
Conflicted With             reported work hours and scheduled class hours. The
Scheduled Class Hours       possible causes are the lack of written policies and
                            procedures and inadequate separation of duties. OSFAP
                            should instruct the University to: (1) provide support to
                            show that the jobs were allowable or refund $40,582; (2)
                            establish and implement written policies and procedures that
                            document job titles and job descriptions for FWS employees
                            and prohibit students from reporting work hours that
                            conflict with scheduled class hours, and (2) improve
                            separation of duties.

                            When students dropped out of school, the University often
  The University’s          excluded a $100 administrative fee when making the refund
  Refund Policy Did Not     calculation. Federal regulations require an institution to
  Disclose Administrative   provide a clear and conspicuous statement containing its
  Fees                      refund policy. The University published a refund policy, but
                            did not disclose the administrative fee. The University
                            should revise its published refund policy to notify students
                            that it would exclude an administrative fee when calculating
                            refunds.




FINAL AUDIT REPORT                   Page 2              ED-OIG-AS, Audit Control Number 05-90009
                                      Audit Results
The University generally administered the Title IV, SFA programs in accordance with the
regulations except for the items discussed below. Specifically, the University did not: (1) always
liquidate credit balances or return overpayments; (2) award FSEOG correctly; (3) document
FWS job titles and job descriptions or prohibit students from reporting hours worked during
scheduled classes; and (4) disclose all fees assessed. OSFAP should instruct the University to:
(1) liquidate credit balances and return overpayments and review all student ledger cards for
additional credit balances and outstanding overpayments and refund any it identifies; (2) establish
and implement policies and procedures to ensure it awards FSEOG in accordance with the
regulations; (3) support that students worked in allowable jobs or refund $40,582 to ED, and
establish and implement policies and procedures that document job titles and job descriptions, and
prohibit students from reporting work hours and class hours that are in conflict; and (4) revise its
refund policy to notify students of the administrative fee assessed when making a refund
calculation. The University said it recognizes a need for more detailed written policies and
procedures so it has started drafting an operating manual. It agreed with findings 1, 2, and 4 in
total and with finding 3 in part. For finding 3, the University disagreed that it should refund all
FWS wages. We have not changed the finding because the University did not provide specific
support for the unsupported work.



       The University Did Not Always Liquidate Credit
       Balances or Return Overpayments Applicable to
             Students Who Did Not Start Class

The University did not always liquidate credit balances or return overpayments when it disbursed
funds to students who did not start class. The regulations require an institution to liquidate credit
balances and return overpayments. For students in our sample, the University did not liquidate
credit balances of $768 or return overpayments of $3,780 disbursed on behalf of “no-show”
students. The University should: (1) establish and implement written policies and procedures for
liquidating credit balances and returning overpayments; (2) liquidate the outstanding credit
balances and return to ED overpayments disbursed on behalf of “no-show”students in our sample;
(3) review all student ledger cards for credit balances and liquidate outstanding balances; and (4)
review all student ledger cards for funds disbursed on behalf of “no-show” students and return any
overpayments. An independent public accountant should attest to the University’s results for
recommendations 3 and 4.


 An Institution Must             According to 34 Code of Federal Regulations [CFR] 668.164 (e),
 Liquidate Credit                whenever the total amount of all Title IV, Higher Education Act
 Balances and Return             [HEA] program funds credited to a student’s account exceeds
 Overpayments                    the amount of tuition and fees, room and board, and other
                                 authorized charges, the institution must pay the resulting credit
                                 balance directly to the student or parent no later than 14

FINAL AUDIT REPORT                              Page 3               ED-OIG-AS, Audit Control Number 05-90009
                         days after the first day of class of a payment period if the credit
                         balance occurred on or before the first day of class of that
                         payment period. Further, 34 CFR 668.21 provides that, if a
                         student drops out before his or her first day of class, all funds
                         paid to the student for that payment period must be returned to
                         the respective Title IV, HEA program.

 Credit Balances and     The University did not liquidate credit balances for students who
 Overpayments Remained   dropped enrollment. From our sample of 100 students, we found
 on the University’s     8 students had credit balances totaling $768. At the time of our
 Accounting Records      review, the credit balances still were unliquidated. Also, the
                         University did not return $900 of Federal Pell Grant [Pell] and
                         $2,880 of ISAC funds that it disbursed on behalf of “no-show”
                         students. One of the credit balances and one of the
                         overpayments have been on the University’s books for over a
                         year.

                         We recommend that OSFAP instruct the University to:
 RECOMMENDATIONS
                         1.   Establish and implement written policies and procedures for
                              liquidating credit balances and returning overpayments;

                         2.   Pay $768 to students and return $900 of Pell to ED;

                         3.   Review all student ledger cards for credit balances and
                              liquidate outstanding balances; and

                         4.   Review all student ledger cards for funds disbursed on
                              behalf of “no-show” students and return any overpayments.

                         We also suggest that the University return $2,880 to ISAC. An
                         independent certified public accounting firm should attest to the
                         University’s results for recommendations 3 and 4.

                         The University stated that it has liquidated 100 percent of
  Auditee
                         student credit balances, made the recommended Pell refund, and
  Comments
                         refunded money to ISAC. In addition, to prevent unliquidated
                         student credit balances in the future, the University is instituting
                         a policy of (1) performing refund calculations and review within
                         30 days of the end of each quarter and (2) liquidating credit
                         balances quarterly for students who drop.




FINAL AUDIT REPORT                     Page 4                ED-OIG-AS, Audit Control Number 05-90009
  The University Did Not Always Award FSEOG Funds
                       Correctly

Contrary to FSEOG regulations, the University did not give priority to students with the greatest
need when awarding FSEOG. Instead, the University gave priority to students who appeared to
be having trouble paying off their account balances or who indicated a need such as supporting
other family members. As a result, the University awarded FSEOG to students with EFCs greater
than zero, but did not award funds to all students with zero EFCs. OSFAP should instruct the
University to establish and implement written policies and procedures for awarding FSEOG which
comply with the regulations.


 Regulations Prescribe          According to 34 CFR 676.10(a)(1), when an institution is
 Priority Order for             selecting among eligible students for FSEOG awards in each
 FSEOG Awards                   award year, the institution must select those students with the
                                lowest expected family contributions who will also receive Pell in
                                that year.

                                The University awarded and disbursed FSEOG to 78 Pell
                                recipients it believed had the greatest need. The Director of
 FSEOG Awards Did Not           Financial Aid informed us she gave priority to students having
 Comply With                    difficulty paying account balances. However, this criterion
 Regulations                    resulted in awards that did not comply with the regulations. We
                                found 33 of the 78 recipients had EFCs greater than zero, while
                                358 Pell recipients with EFCs of zero did not receive FSEOG
                                awards.

RECOMMENDATION                  We recommend that OSFAP instruct the University to establish
                                and implement written policies and procedures for awarding
                                FSEOG that comply with Federal regulations.

                                The University agreed, stating that it has changed its award
  Auditee
                                policy to ensure that students with zero EFCs are awarded
  Comments
                                FSEOG funds before any other students with higher EFCs.




FINAL AUDIT REPORT                            Page 5              ED-OIG-AS, Audit Control Number 05-90009
  FWS Students Had No Job Titles/Job Descriptions and
   Students Reported Work Hours That Conflicted With
                 Scheduled Class Hours

The University’s FWS students had no job titles or job descriptions. Federal regulations restrict
the type of work students can perform. Without a job title or job description it is impossible to
determine if the work students are performing is allowable under FWS regulations. Also, we
found FWS students’time sheets showed conflicts between reported work hours and scheduled
class hours. The possible causes are the lack of written policies and procedures and inadequate
separation of duties. OSFAP should instruct the University to: (1) provide support to show that
the jobs were allowable; (2) establish and implement written policies and procedures that
document job titles and job descriptions for FWS employees and prohibit students from reporting
work hours that conflict with scheduled class hours, and (3) improve separation of duties.


                                Federal regulations restrict the type of work students can
 Regulations Prescribe the
                                perform. The type of work allowed under the FWS program is
 Type of Work FWS
                                discussed in 34 CFR 675.20, 675.21, 675.22, and 675.23.
 Students Can Perform
                                Without a job title or job description, it is impossible to
                                determine if the work students are performing is allowable under
                                FWS regulations.

 FWS Students Do Not            FWS students at the University do not have job titles or job
 Have Job Titles or Job         descriptions in their files. We reviewed the FWS files for 8 of
 Descriptions                   the 29 students who received FWS funds during the 1997-98
                                award year and found none of the students had job titles or job
                                descriptions. We asked University officials about job titles and
                                job descriptions and were informed there were none.

                                We found FWS time sheets showed conflicts between students’
 Conflicts Found Between        reported work hours and scheduled class hours. We
 Reported Work Hours            judgmentally selected 5 of the 8 FWS students whose files we
 and Scheduled Class            reviewed and compared the students’reported work hours to
 Hours                          scheduled class hours. All 5 students reported work hours on
                                their time sheets that conflicted with their scheduled class hours.
                                FWS funds are intended to help students meet the cost of
                                attending postsecondary education institutions. Students
                                working during scheduled class hours appears to be contrary to
                                the purpose of the FWS program contained in 34 CFR 675.1(a).

 Lack of Written Policies       The University has no written policies or procedures that
 and Procedures and             prohibit students from working during scheduled class hours or
 Separation of Duties           controls to ensure that students’work schedules and class
                                schedules do not conflict. Also, the Director of Financial Aid
                                performs most of the duties related to administering the FWS

FINAL AUDIT REPORT                            Page 6               ED-OIG-AS, Audit Control Number 05-90009
                     program, sometimes with little first hand knowledge of existing
                     circumstances. For example, we found the Director of Financial
                     Aid signed off on students’time sheets even when she was not
                     the supervisor.

                     We recommend that OSFAP instruct the University to:
 RECOMMENDATIONS
                     1.   Provide support to show the jobs were allowable or refund
                          $40,582 to ED;

                     2.   Establish and implement written policies and procedures
                          that document job titles and job descriptions for FWS
                          employees and prohibit students from reporting or
                          scheduling work hours that conflict with scheduled class
                          hours; and

                     3.   Improve separation of duties.

                     The University provided newly prepared job descriptions for
  Auditee
                     each FWS position, noting they all qualified under the
  Comments
                     regulations. Therefore, it disagreed that all student hours should
                     be refunded. The University agreed that conflicts existed for
                     two students, provided an explanation for the conflicts, and
                     agreed to reimburse $407 to FWS. In addition, the University
                     said all supervisors have been instructed to more closely monitor
                     students’hours and use of the time clock.

                     We agree the new job descriptions are for jobs which qualify
  OIG Response
                     under the FWS regulations. However, the University did not
                     provide information which associated students who received
                     FWS during the audit period with the specific jobs covered by
                     the new job descriptions. Therefore, FWS wages of $40,582
                     still are unsupported.




FINAL AUDIT REPORT                 Page 7                 ED-OIG-AS, Audit Control Number 05-90009
      The University’s Refund Policy Did Not Disclose
                    Administrative Fees

When students dropped out of school, the University often excluded an administrative fee when
making the refund calculation. The University published a refund policy, but did not disclose the
administrative fee. Federal regulations require an institution to provide a clear and conspicuous
statement containing its refund policy. The University should revise its published refund policy to
notify students that it will exclude an administrative fee when calculating refunds.


                                According to 34 CFR 668.22 (a)(2), an institution must provide a
Federal Regulations             clear and conspicuous written statement containing its refund
Require Institutions to         policy to prospective and current students. Also, 34 CFR
Inform Students of              668.44(a)(1)(i) and (a)(1)(v) state that information the institution
Refund Policy                   must publish and make readily available to prospective and
                                current students includes, but is not limited to, tuition and fees.

 The University Charged          For six students in our sample who dropped out of school, the
 an Undisclosed                  University excluded an administrative fee when calculating their
 Administrative Fee to           refunds. Because the University did not disclose the fee, the six
 Students That Withdrew          students were not aware that their refunds were reduced by the
                                 amount of the fee.

                                 We recommend that OSFAP instruct the University to revise its
 RECOMMENDATION
                                 published refund policy to notify students that their refunds will
                                 be reduced by the amount of the administrative fee.

                                 The University stated it has added a fee disclosure to the next
  Auditee
                                 edition of the University catalog effective for the 1999/2000
  Comments
                                 academic year and will forego this fee until the catalog is issued.




FINAL AUDIT REPORT                             Page 8               ED-OIG-AS, Audit Control Number 05-90009
                                                                                               Appendix

                                      Background
The University, which is located in Chicago, Illinois, was established as a non-profit corporation
in 1979. The University is licensed by the State of Illinois Board of Higher Education and
accredited by the North Central Association of Colleges and Schools. During the award year July
1, 1997 through June 30, 1998, it participated in the FWS, FSEOG, and Pell Title IV, HEA
programs. The University reported to ED that it disbursed funds totaling $990,628 for the 1997-
98 award year, consisting of $40,582 of FWS, $38,092 of FSEOG, and $911,954 of Pell. Title
IV of the HEA, as amended, authorized these three programs. The regulations contained in Title
34 of the CFR, Parts 675, 676, and 690, respectively, implemented the three programs. In
addition, these programs were subject to the provisions contained in both the Institutional
Eligibility regulations [34 CFR 600] and the Student Assistance General Provisions regulations
[34 CFR 668]. All regulatory citations in the report are to the codification in effect as of July 1,
1997.


        Purpose, Objectives, Scope, and Methodology
The purpose of our audit was to determine whether the University administered the Student
Financial Assistance programs according to laws and regulations authorized by Title IV of the
HEA, as amended. The overall objectives of our audit included examining: (1) management
controls; (2) institutional and program eligibility; (3) cash management and accounting; and (4)
selected administrative and compliance requirements including financial responsibility, student
eligibility, award calculations and disbursements, refunds, and overpayments. To achieve the
purpose and objectives, we reviewed: written operating policies and procedures, 100 randomly
selected student files from a total of 538 files, the most recent Student Financial Assistance audit
report and related working papers, the most recent Chicago case management team (formerly
known as the Institutional Review Branch) file, State licensing and accrediting agency documents,
school catalog, bank records, ED's eligibility files and other documents, and accounting and
administrative records. We also interviewed University officials, ED regional personnel, and the
University’s independent public accountants. Our initial audit period covered the year ended June
30, 1998. Based on our work, we also reviewed documents before and after our audit period.

We conducted the on-site field work at the University’s campus and at the independent public
accountant's office from November 30, 1998 through January 15, 1999. We conducted our audit
in accordance with government auditing standards appropriate to the scope described above.


                 Statement on Management Controls
As part of our audit, we made an assessment of the University’s management control structure,
policies, procedures, and practices applicable to the Title IV, HEA programs. The purpose of our
assessment was to determine the level of control risk; that is, the risk that material errors,
irregularities, or illegal acts may occur. The control risk assessment was performed to assist us in
determining the nature, extent, and timing of substantive tests needed to accomplish our audit
purpose and objectives.


FINAL AUDIT REPORT                             Page 9               ED-OIG-AS, Audit Control Number 05-90009
                                                                                                   Appendix

To make the assessment, we identified and classified the significant internal administrative
controls into five categories: institutional eligibility; program eligibility; student eligibility; cash
management; and file maintenance. Because of inherent limitations, a study and evaluation made
for the limited purpose described above would not necessarily disclose all material weaknesses in
the control structure. However, we identified weaknesses related to credit balances,
overpayments, refund calculations, FSEOG awards, and FWS that we discuss fully in the Audit
Results section of the report.




FINAL AUDIT REPORT                                Page 10               ED-OIG-AS, Audit Control Number 05-90009
                           REPORT DISTRIBUTION LIST
                                                                                                No. of
                                                                                                Copies
Auditee (Original)

Action Official
Greg Woods
Chief Operating Officer
Office of Student Financial Assistance Programs . . . . . . . . . . . . . . . . . . 1

Other ED Offices
Service Director, Institutional Participation and Oversight Service . . . . . . . . . . . . . . . . . . . . . . . 1

Audit Liaison, Institutional Participation and Oversight Service (Patricia Trubia) . . . . . . . . . . . . 1

Office of Public Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Service Director, Accounting and Financial Management Service . . . . . . . . . . . . . . . . . . . . . . . . 1

Post Audit Group Supervisor . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Chicago Team Area Case Director . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Secretary's Regional Representative, Region V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

ED-OIG
Inspector General (Acting) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Deputy Inspector General (Acting) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Assistant Inspector General for Audit (Acting) . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Assistant Inspector General for Investigation (Acting) . . . . . . . . . . . . . . . . . . . . Electronic Copy

Assistant Inspectors General for Operations . . . . . . . . . . . . . . . . . . . . Electronic Copies (1 Each)

Director, Advisory and Assistance, Student Financial Assistance . . . . . . . . . . . . Electronic Copy

Director, Planning, Analysis, and Management Services . . . . . . . . . . . . . . . . . . . Electronic Copy

Audit Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Regional Inspector General for Investigation . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copy

Regional Inspectors General for Audit . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copies (1 Each)

Region V Audit Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Electronic Copies (2)
